U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


      OFFICE OF THE SECRETARY
    Improvements Needed in Controls Over
             Approvals for and Testing of
                         CAMS Software
        Final Audit Report No. FSD-12940/September 2000




       Office of Audits, Financial Statements Audits Division
September 20, 2000


MEMORANDUM FOR:               Linda J. Bilmes
                              Chief Financial Officer and
                               Assistant Secretary for Administration
                              Office of the Secretary


FROM:                         Johnnie E. Frazier


SUBJECT:                      Improvements Needed in Controls Over Approvals for and
                              Testing of CAMS Software
                              Final Audit Report No. FSD-12940

This is our final audit report on the adequacy of controls over approvals for and testing of the
Commerce Administrative Management System (CAMS) software. Our audit found that
although the CAMS Support Center has taken action during the last two years to strengthen
controls over CAMS software, some CAMS Support Center management positions with
conflicting responsibilities are held by the same personnel and that most decisions to change
CAMS have not been adequately documented. Also, we found that system testing of most
modules is not performed, and system documentation does not reflect the current state of
software. We recommend that corrective actions be taken to ensure that (1) all conflicting duties
are segregated, (2) decisions that support changes to CAMS are documented, and (3) policies
and procedures regarding system testing and system documentation are followed. (See pages 5-
9.)

Your office’s response to the draft report expressed general agreement with the findings and
recommendations, and noted corrective actions already taken. We have, where appropriate,
incorporated your suggested changes and comments into this final report. Your complete
response is included as an attachment to the report.

Please provide your audit action plan addressing the recommendations for our concurrence
within 60 days of the date of this memorandum in accordance with Department Administrative
Order (DAO) 213-5. The plan should be in the format of Exhibit 7 of the DAO. Should you
have any questions regarding preparation of the audit action plan, please contact me at (202) 482-
4661 or Thomas McCaughey, Director, Financial Statements Audits Division, at (202) 482-6044.

We appreciate the cooperation and courtesies extended to us by your staff during the review.
U.S. Department of Commerce                                                          Final Report FSD-12940
Office of Inspector General                                                                   September 2000

INTRODUCTION

This final report presents the results of our audit of the CAMS Support Center’s controls over
application software development and change control. Application software development and
change control helps to prevent the implementation of unauthorized programs or modifications
to existing programs. In conducting this financial systems audit, we used the General
Accounting Office’s (GAO) Federal Information System Controls Audit Manual (FISCAM) as a
guide in our assessment. On February 22, 2000, we issued audit report No. FSD-11846-0-0001,
Improvements Needed in the General Controls at the Commerce Administrative Management
System Support Center, which addresses the other five FISCAM areas1 and is a restricted,
limited-distribution report.

Since fiscal year 1989, the Department’s lack of a single, integrated financial system has been
reported as a material internal control weakness in the Secretary’s annual reports to the President
under the Federal Managers’ Financial Integrity Act. To correct this weakness, the Department
began the development and acquisition of CAMS, which consists of a core financial system
containing six integrated modules,2 and is to be integrated with Department-wide functional
systems. Currently, CAMS is functional at the Census Bureau, and EDA is using the Accounts
Receivable and Accounts Payable modules. NOAA has implemented the Travel Manager
module in CAMS, the Small Purchases module, and a majority of the Accounts Payable module.
NOAA also has begun implementing the Purchase Card module. For fiscal year 2001, the
Department plans to have the Office of Secretary operational, followed by other clients that are
cross-serviced by NIST. By fiscal year 2002, NOAA’s CAMS pilot at the National Oceans
Survey is to be in production, and NIST will begin phased implementation. The Department
projects that CAMS will be fully implemented by fiscal year 2004.

Oversight of the CAMS program is the responsibility of the CAMS Executive Board, which sets
policy, provides budget and resources for implementation, gives guidance when conflicts of
priorities occur, and reports to the Department’s Chief Financial Officer (CFO) through the
Deputy CFO. The Deputy CFO has operational control over the CAMS Support Center, located
in Gaithersburg, Maryland. The Support Center, through the use of contractors, is responsible
for making changes to CAMS as part of its software development and implementation activities.




        1
           Entitywide security program planning and management, access control, system software, segregation of
duties, and service continuity.

        2
       General Ledger, Accounts Payable, Accounts Receivable, Cost Accumulation, Budget/Funds
Management, and Financial Reporting.

                                                       2
U.S. Department of Commerce                                                            Final Report FSD-12940
Office of Inspector General                                                                     September 2000

These changes are first assessed by the Technical Advisory Council3 (TAC), which provides a
recommendation to the Software Change Control Board 4 (SCCB) for a decision. Items that
significantly affect resource utilization or prioritization are elevated to the CAMS Executive
Board for resolution. As of May 1, 2000, the Support Center had 30 government employees and
58 contractor employees.

The Support Center has three divisions:

l The Technical Support Division performs application software design, programming, and
  maintenance; manages the CAMS software change release and system architecture; tests
  software; and provides support for the Support Center’s internal infrastructure.

l The System Support Division handles the functional aspects of CAMS, provides customer
  support to the bureaus, and maintains system documentation and CAMS training materials.
  This division is also responsible for inspecting the software for quality assurance and
  control.

l The Program Support Division provides support for general and contract administration,5
  and program management for performance measurement and independent verification and
  validation of CAMS and the Support Center.

Over the past 2 years, the Support Center has taken steps to improve its operations. For
example, the Support Center has started the process for implementing the Capability Maturity
Model for Software,6 and for attaining the model’s Level 2 maturity level – where development
processes are considered “repeatable.” This level permits management to institutionalize
successful processes developed on earlier projects. In addition, the Support Center involves


        3
           The TAC is chaired by the Support Center’s functional architect and is composed of bureau functional
and information technology system experts. The TAC is to assess proposed changes’ software functionality,
technical feasibility, and impacts on performance, and to recommend approaches to the Software Change Control
Board.
        4
           The SCCB is chaired by the Support Center’s Program Manager and is composed of the bureaus’
financial officers and CAMS implementation managers. The SCCB votes on the proposed changes to CAMS
functionality and requirements that are proposed by the TAC.

        5
            NOAA also provides support to the CAMS Support Center for contract administration.

        6
           The model, developed by the Software Engineering Institute of Carnegie Mellon University, is used to
judge the maturity of an organization’s software processes and to identify the key practices that are required to
increase the maturity of these processes.

                                                        3
U.S. Department of Commerce                                                           Final Report FSD-12940
Office of Inspector General                                                                    September 2000

Commerce bureaus in defining CAMS change requirements, is establishing a formal quality
assurance process over its software development, and uses lessons-learned practices for
assessing its recently revised software release cycle.

The audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and was performed under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.

OBJECTIVES, SCOPE, AND METHODOLOGY

The audit’s objective was to determine whether the CAMS Support Center had established
adequate controls over the approvals for and modification of CAMS software. The scope of the
audit was to assess the existence of (1) proper authorizations for processing features and
program modifications, (2) adequate tests and approvals for new and revised software, and (3)
proper controls over software libraries. We address our concerns for the first and second
objectives in the following sections. We did not identify any deficiencies for the third objective
during our review. We did not perform tests7 of the Support Center’s workload regarding
change requests8 to CAMS software because the Support Center had only formalized and issued
its new software development and maintenance procedures on May 8, 2000. Of the 633 change
requests logged for fiscal year 2000 (as of May 17, 2000), only 35 (6 percent) had been made
under these new procedures; thus, historical data was too limited for us to make a valid
conclusion.

We performed our review from April through June 2000 by interviewing Support Center
management and staff; reviewing policies and procedures, change request workload, and quality
assurance processes; identifying and assessing control techniques consistent with current
industry standards and compliance with government guidelines and regulations; gaining an
understanding of the general controls structure surrounding the Support Center’s software
development and maintenance environment; and assessing risks surrounding the areas of key
management and software development and change control. During the review and at its
conclusion, we discussed our findings with the Support Center’s program manager and division
directors.


        7
          Such tests usually include evaluating whether the requests were documented in accordance with policies
and procedures, prioritized based on criticality, reviewed by management, authorized/approved for programming,
and adequately tested.

        8
         A change request (activity request) provides the Support Center with an overview of the software
problem and serves as a starting point for further functional and technical analysis.

                                                       4
U.S. Department of Commerce                                                           Final Report FSD-12940
Office of Inspector General                                                                    September 2000



                              FINDINGS AND RECOMMENDATIONS

I. Additional Improvements Are Necessary for the Controls
   over Approvals of Software Features and Modifications

The Support Center formalized and issued new software development and maintenance
procedures on May 8, 2000. Our review found that, although the Support Center has taken
actions to improve its operations, additional improvements are needed in the controls over
approvals of CAMS software features and change modifications. Specifically, we found that
some CAMS Support Center management positions with conflicting responsibilities are held by
the same personnel, and that decisions to change CAMS have not been adequately documented.

A. Some CAMS Support Center management positions with
   conflicting responsibilities are held by the same personnel

While assessing the key management controls in place at the Support Center, we found that
some management positions with conflicting responsibilities are held by the same personnel.
For instance, a lack of segregation of duties exists because the director positions for the
Technical Support Division (TSD) and the Systems Support Division (SSD) are currently
handled by the same person. According to documentation provided by the Support Center, one
of TSD’s main responsibilities is to maintain and develop program code that implements
approved CAMS changes and enhancements, while SSD is responsible for improving software
quality by enforcing compliance with development standards. With the same individual
responsible for overseeing and administering both of these areas, excessive emphasis placed on
one area could result in deficiencies remaining unaddressed in the other.

GAO’s Standards for Internal Control in the Federal Government, issued in November 1999,
state that program managers should implement appropriate and effective internal controls to
better achieve program results and to help in managing change from shifting environments and
evolving demands and priorities. Internal control activities, such as approvals and
authorizations, aid in the segregation of duties, and should be used to ensure that management
directives are carried out.

Although the Support Center maintained that the lack of segregation of duties has resulted from
a shortage of personnel,9 we believe that sound business practices, policies, and procedures for


        9
          As of May 2, 2000, there were nine vacancies at the Support Center (one director, four team leaders,
three computer specialists, and one team member). The Support Center management had shifted responsibilities
from some of these vacant positions to existing staff.

                                                       5
U.S. Department of Commerce                                              Final Report FSD-12940
Office of Inspector General                                                       September 2000

segregation of duties should be implemented as mitigating controls. By allowing one person to
have responsibility over conflicting duties, effective planning and management lessen and risks
increase.

B. Decisions to change CAMS have not been adequately documented

Decisions made by the CAMS Software Change Control Board were not documented.
Documentation for decisions that support approved changes to CAMS should include (1) input
received from the bureaus, (2) the potential impact of each change on the Support Center’s
activities and workload, and (3) any recommendations to the CAMS Executive Board. The
Support Center could not provide us with documentation concerning decisions made by the
SCCB on proposed CAMS software changes. Nor could the Support Center provide us with
documentation on its briefings to the CAMS Executive Board regarding proposed changes to
CAMS and the resulting Executive Board decisions. The Support Center maintained only the
CAMS Executive Board’s agendas on topics for discussion.

As previously mentioned, the SCCB is chaired by the Support Center’s Program Manager and is
composed of the bureaus’ financial officers and CAMS implementation managers. The SCCB’s
responsibility is to vote on the proposed changes to CAMS functionality software and
requirements that are proposed by the TAC. In addition, the SCCB is to set priorities for
software modifications to be performed by the Support Center.

GAO’s Standards for Internal Control in the Federal Government state that internal control
activities help to ensure that management directives are carried out. Maintaining appropriate
documentation of approvals or disapprovals of proposed changes is one of these activities.
Internal controls such as approvals need to be clearly documented, and documentation should
be readily available for examination.

We found that when the TAC decided on proposed changes to CAMS, it notified the SCCB;
however, the SCCB’s decisions were not documented. To illustrate, on September 23, 1999, the
Census Bureau and the Support Center agreed through two memorandums of understanding
(MOU) to have the Support Center provide software development services to Census. The
Support Center was to complete the design and programming of an archiving module for CAMS
and to deliver the module’s software to Census upon completion. Census noted that this
module would provide the means for removing transactions from online processing, retiring
transactions, and providing access to archived transactions as needed. The MOUs’ performance
periods were from September 1999 through September 2000, and through the MOUs, Census
provided over $340,000 to the Support Center for the work to be done. However,
documentation of the SCCB’s decision on these MOUs–either approval or disapproval–was not
maintained.


                                               6
U.S. Department of Commerce                                                 Final Report FSD-12940
Office of Inspector General                                                          September 2000

Even though the Support Center has experienced software development personnel who have
historical knowledge of the system and its requirements, GAO’s standards requiring the
maintenance of adequate approval documentation for changes to CAMS have not been
adequately followed. Failing to document approvals limits management’s ability to support and
justify its decisions.

C. Recommendations

We recommend that the Director for Financial Management and Deputy CFO require the CAMS
Support Center Program Manager to:

1. Segregate duties having conflicting internal control responsibilities.

2. Implement and enforce GAO’s standards to document all decisions that support approved
   changes to CAMS. Such documentation should include (a) input received from the bureaus,
   (b) the potential impact of each approved change on the Support Center’s activities and
   workload, (c) the CAMS Software Change Control Board decisions, and (d) the Support
   Center’s briefings to the CAMS Executive Board regarding proposed changes to CAMS and
   the resulting Executive Board decisions.

Director for Financial Management and Deputy CFO’s Response and OIG Comments

In his written response to the draft report, the Director and Deputy CFO agreed with our
findings and recommendations and stated that corrective actions have been initiated. On July
20, 2000, the Support Center hired a new Director for TSD. Further, the Support Center will
have each proposed software change go through functional and technical assessments and
obtain approvals from both TSD and SSD. Also, between June 20 and August 7, 2000, the
Support Center reported that it provided training for all its government staff on how to conduct
and document effective meetings and that documentation will be enforced as a policy for all
decision bodies associated with CAMS. The actions are consistent with the intent of the
recommendations.

II. Improvements Are Still Needed in Controls over
    Testing of New and Revised Software

The Support Center does not perform system (regression) testing of most CAMS modules.
System testing verifies that changes or additions to CAMS software have not caused
unintended effects to CAMS and also examines the operation of CAMS as an overall entity or
system. In addition, system documentation was not updated to reflect the current state of CAMS
software code.


                                                7
U.S. Department of Commerce                                                     Final Report FSD-12940
Office of Inspector General                                                              September 2000

A. System Testing Is Not Performed for Most CAMS Modules

After reviewing the Support Center’s processes, practices, and documentation and interviewing
key management officials, we found that system testing was performed for only the Accounts
Payable module, which uses over 800 automated test scripts for testing. Though test scripts are
available for other CAMS modules, the Support Center had not programmed them into the
testing software. The Support Center stated that the reason for not fully testing most modules is
the shortage of personnel.

GAO’s FISCAM establishes control guidance for application software development and change
control. The manual states that software should undergo a disciplined process of testing and
approval prior to implementation in order to ensure that it operates as intended. Such testing
should include unit, integration, and system testing.

We believe that sound business practices, policies, and procedures for determining the
appropriate level of software testing that should occur have not been adequately followed. A
lack of complete system testing reduces the Support Center’s assurances that software will
operate as intended.

B. System Documentation Does Not Reflect the Current State of the CAMS Software

CAMS system documentation has not been updated to reflect the current state of the software.
On November 22, 1999, an independent software-process appraiser contracted to assess the
Support Center’s software maturity level reported that the documentation was “woefully” out of
date. Internal policies and procedures promulgated by the Support Center for updating existing
system documentation have not been adequately followed. The system documentation needs to
be updated in order to reflect the current software version. As GAO has stated,10 controls over
the design, development, and modification of application software help prevent security features
from being inadvertently or deliberately turned off and process irregularities or malicious code
from being introduced. During our audit, the Support Center, through one of its contractors,
provided an individual to maintain the documentation.

FISCAM provides control guidance over changes in programming and developing related
changes to system documentation, including hardware documentation, operating procedures,
and user procedures. System documentation will facilitate coding and testing of future
modifications.

The lack of adequate documentation increases the risk that CAMS software may not meet
operational needs. Also, outdated system documentation could result in significant delays and


        10
           Financial Management Service - Significant Weaknesses in Computer Controls, GAO/AIMD-00-4,
October 9, 1999.

                                                   8
U.S. Department of Commerce                                                Final Report FSD-12940
Office of Inspector General                                                         September 2000

costs when future modifications are made to the software. Given the Department’s lengthy
history of implementing CAMS, coupled with CAMS Support Center staff turnovers, we believe
that system documentation is important to ensure continued operations.

C. Recommendations

We recommend that the Director for Financial Management and Deputy CFO require the CAMS
Support Center Program Manager to:

1. Enforce policies and procedures for performing system (regression) testing of all CAMS
   modules and ensure that the results are documented.

2. Adhere to policies and procedures that require system documentation to be updated as
   changes are made to accurately reflect the current version of software.

Director for Financial Management and Deputy CFO’s Response and OIG Comments

The Director and Deputy CFO agreed with our findings and recommendations and stated that
corrective actions have been initiated. On May 23, 2000, the Support Center awarded and
tasked its contractor to provide additional testing staff as part of the Support Center’s
technology migration/refreshment effort. The Support Center projects that when this effort is
completed in May 2001, test scripts will have been loaded into the automated testing software
for all CAMS modules and changes thereafter to the CAMS software will be subjected to full
system testing. In addition, the Support Center will have the new Director for TSD assess the
state of and need for internal systems documentation of CAMS and will develop a plan by
September 30, 2000. In fiscal year 2001, the Support Center will begin efforts to rectify the lack
of user documentation. These actions are consistent with the intent of the recommendations.

Attachment

cc: James L. Taylor, Director for Financial Management and Deputy Chief Financial Officer
    Robert R. Bair, CAMS Support Center Program Manager
    Roger W. Baker, Chief Information Officer




                                                9
